29. Asignación. En cualquier momento podemos asignar o vender esta Cuenta, cualquier cantidad adeudada en esta Cuenta o sus derechos y obligaciones según esta Cuenta. Cualquier persona o personas
a las que les hagamos dicha asignación o venta estará autorizada para ejercer todos nuestros derechos según el presente Contrato hasta el alcance que se le hayan asignado.
30. Ley imperante: El presente Contrato, incluso las tasas de interés y cargos, lo regirán las leyes federales correspondientes y las leyes substantivas del Estado de Delaware (hasta el punto que no
las excluyan las leyes federales) sin tener en cuenta los principios del conflicto de derecho o la selección de derecho.
31. Su consentimiento para recibir divulgaciones electrónicas. Si usted presentó la solicitud para esta Cuenta electrónicamente, usted estuvo de acuerdo en que cualquiera y todas las divulgaciones y/o
notificaciones de la apertura de la cuenta exigidas por las leyes y regulaciones aplicables se le pueden mandar electrónicamente siempre y cuando usted no haya retirado su consentimiento. Otros documentos
que podemos poner a su disposición electrónicamente de vez en cuando y después de haber obtenido su consentimiento incluyen si limitación a ellas, las divulgaciones exigidas por la ley llamada Federal
Truth in Lending Act (Ley federal de veracidad en préstamos), notificaciones o divulgaciones exigidas por la ley Equal Credit Opportunity Act (Ley de oportunidad equitativa en el crédito) o Fair Reporting Act
(Ley de reportes justos), notificaciones de privacidad, cambios en los términos, cuentas mensuales y cualquier otra notificación que las leyes federales o estatales exijan le sean provistas por escrito.
Usted puede pedir una copia impresa de cualquier notificación que reciba electrónicamente y se le proporcionará sin costo alguno cualquier notificación exigida. Si esta cuenta es mancomunada, cualquier
titular de la cuenta puede seleccionar recibir notificaciones electrónicas y esa selección se aplicará a todos los titulares de la cuenta. En cualquier momento usted puede retirar su consentimiento para recibir
los documentos electrónicamente. Para retirar su consentimiento y recibir las notificaciones impresas, tiene que llamarnos al 1-800-252-2551. Sin embargo, retirar dicho consentimiento puede dar como
resultado que se cierre su cuenta. Usted tiene que notificarnos cualquier cambio a su dirección electrónica llamándonos al número de teléfono indicado arriba. Para poder recibir la información electrónicamente,
tiene que tener una computadora que use Microsoft Internet Explorer 8® o una versión más reciente o una versión actual de Google Chrome®, Mozilla Firefox®, o Google Safari®. Todos los navegadores
tienen que ser compatbiles con JavaScript, Cookies y SALE (capa de protección segura) para la codificación de canales usando codificación de 128-bits. Usted tiene que tener una dirección IP pública que no
cambie en medio de la sesión si no, por razones de seguridad, se terminará la sesión.
32. Derecho de garantía real: Por el presente usted nos otorga el derecho de garantía real sobre cualquier compra hecha con la Cuenta incluso Compras por Internet, teléfono y correo hechas por usted o
por otra persona autorizada por usted para usar esta cuenta y los beneficios de la misma, incluso beneficios de seguros. Además, usted nos autoriza a presentar sin su firma las declaraciones de financiamiento
que muestren nuestro derecho de garantía real en la compra y beneficios de la misma o, en el caso que la ley estatal exija su firma, usted está de acuerdo en participar en la firma de todas las declaraciones
de financiamiento de un modo que nos sea satisfactorio. Cualquier compra dada seguirá siendo una garantía de todas las compras hasta el momento en que dicha compra se haya pagado por completo y
usted está de acuerdo en que sus pagos se considerarán hechos según indica la Sección 11 del presente Contrato.
AVISOS
A.
EN CUALQUIER MOMENTO PUEDE PAGAR TODO LO ADEUDADO SEGÚN EL PRESENTE CONTRATO.
B.
USTED GUARDARÁ UNA COPIA DEL PRESENTE CONTRATO PARA PROTEGER SUS DERECHOS LEGALES.
C.
SUJETO A LAS LEYES CORRESPONDIENTES, EL BANCO PUEDE CAMBIAR LOS TÉRMINOS DE, AGREGAR TÉRMINOS NUEVOS A O ELIMINAR TÉRMINOS EN EL PRESENTE CONTRATO. EL
BANCO LE NOTIFICARÁ EL CAMBIO, LO AGREGADO O ELIMINADO POR ANTICIPADO CUANDO LO EXIJA LA LEY CORRESPONDIENTE. CUALQUIER CAMBIO, TÉRMINOS AGREGADOS O ELIMINADOS AL
PRESENTE CONTRATO TENDRÁN VIGENCIA EN EL MOMENTO EN QUE LO INDIQUE LA NOTIFICACIÓN.
AVISO: CUALQUIER TITULAR DEL PRESENTE CONTRATO DE CRÉDITO AL CONSUMIDOR ESTÁ SUJETO A TODAS LAS RECLAMACIONES Y DEFENSAS QUE EL DEUDOR PUEDA ASEVERAR CONTRA EL
VENDEDOR DE LOS BIENES O SERVICIOS OBTENIDOS CON LOS INGRESOS DEL PRESENTE. LA RECUPERACIÓN POR EL DEUDOR SEGÚN EL PRESENTE NO DEBE SUPERAR LAS CANTIDADES PAGADAS
POR EL DEUDOR SEGÚN EL PRESENTE.
Residentes de Nueva Jersey Ciertas disposiciones del presente Contrato pueden ser nulas, no exigibles o inaplicables en algunas jurisdicciones. Sin embargo, ninguna de estas disposiciones son nulas,
no exigibles o inaplicables en Nueva Jersey.
_________________________________________________________________________________________________________________________________________________________________
SUS DERECHOS DE FACTURACIÓN: GUARDE ESTE DOCUMENTO PARA USO FUTURO
Esta notificación le indica sus derechos y nuestras responsabilidades según la ley llamada en inglés Fair Credit Billing Act (Ley de facturación imparcial de crédito).
Qué hacer cuando encuentra un error en su Cuenta
Si cree que hay un error en su cuenta, escríbanos a: Customer Service at P.O. Box 731 Mahwah, New Jersey 07430
Sírvase proporcionar la información siguiente en su carta:
•
Información de la Cuenta: Su nombre y número de cuenta.
•
Cantidad en dólares: La cantidad monetaria del error que se sospecha.
•
Descripción del problema: Si cree que hay un error en su cuenta, describa lo que usted cree que está mal y porqué cree que es un error.
Tiene que ponerse en contacto con nosotros:
•
En un plazo de 60 días después de que el error haya aparecido en su cuenta.
•
Por lo menos 3 días laborales antes de que se haya programado un pago automático si quiere que no se pague la cantidad que cree que está equivocada.
Tiene que notificarnos cualquier error potencial por escrito. Nos puede llamar pero, si lo hace, no se nos exige que investiguemos ningún error potencial y es posible que tenga que pagar la cantidad en cuestión.
Que pasará después de que recibamos su carta
Cuando recibamos su carta, tenemos que hacer dos cosas:
1. En un plazo de 30 días de haber recibido su carta tenemos que decirle que la hemos recibido. También le diremos si ya hemos rectificado el error.
2. En un plazo de 90 días de haber recibido su carta tenemos que rectificar el error o explicar por qué creemos que la cuenta estaba correcta.
Mientras investigamos si hay un error o no:
•
No podemos tratar de cobrar la cantidad en cuestión o reportar que ha incurrido en situación de incumplimiento.
•
El cargo en cuestión puede permanecer en su cuenta y podemos seguir cobrando el interés de esa cantidad.
•
Aunque no tiene que pagar la cantidad en cuestión, usted es responsable de pagar el resto del saldo.
•
Podemos aplicar cualquier cantidad no pagada contra el límite de su crédito.
Después que terminemos nuestra investigación, sucederá una de dos cosas:
•
Si hemos cometido un error: No tendrá que pagar la cantidad en cuestión ni ningún interés u otros cargos relacionados con esa cantidad.
•
Si no creemos que ha habido un error: Tendrá que pagar la cantidad en cuestión junto con todos los intereses y cargos correspondientes Le enviaremos un estado de cuenta que indique la
cantidad que debe y la fecha en que vence el pago. Entonces es posible que reportemos que ha incurrido en situación de incumplimiento si no paga la cantidad que creemos que debe.
Si recibe una explicación pero todavía cree que la cuenta está equivocada, tiene que escribirnos dentro de un plazo de 10 días diciéndonos que todavía se niega a pagar. Si hace eso, no podemos reportar que
no ha pagado si no reportamos también que ha puesto en duda la cuenta. Tenemos que decirle el nombre de cualquiera a quien hemos reportado que ha incurrido en situación de incumplimiento y tenemos
que hacerle saber a esas organizaciones cuándo hemos arreglado el asunto entre nosotros.
Si no observamos todas las reglas anteriores, ustes no tendrá que pagar los primeros $50 de la cantidad en cuestión aún si su cuenta está correcta.
Sus derechos si no está satisfecho con las Compras hechas con la Tarjeta de crédito:
Si no está satisfecho con los bienes o servicios que ha comprado con su tarjeta de crédito y de buena fe ha tratado de resolver el problema con el comerciante, es posible que tenga el derecho de no pagar la
cantidad restante que debe por esos bienes o servicios.
Para utilizar ese derecho todo lo siguiente debe ser cierto:
1. Tiene que haber hecho la compra en el estado en el que vive o dentro de 100 millas a la redonda de su dirección postal actual y el precio de compra tiene que haber sido más de $50. (Nota: Ninguno
de los dos es necesario si su compra estuvo basada en un anuncio que le mandamos por correo o si somos propietarios de la compañía que le vendió los bienes o servicios.)
2. Tiene que haber usado su tarjeta de crédito para hacer la compra. Las compras hechas con dinero en efectivo obtenido en un cajero automático o con un cheque con acceso a la cuenta de su tarjeta
de crédito no califican.
3. Todavía no puede haber pagado por la compra por completo.
Si se cumplen todos los criterios anteriores y todavía no está satisfecho con la compra, póngase en contacto con nosotros por escrito al: Customer Service at P.O. Box 731 Mahwah, New Jersey 07430
Mientras investigamos, las mismas reglas presentadas arriba corresponden a la cantidad en disputa. Después que terminemos nuestra investigación le informaremos de nuestra decisión. En ese
entonces, si pensamos que debe cierta cantidad y no la paga, podemos reportar que está en situación de incumplimiento.

ADVANCE AUTO PARTS•SPA (1016)

ADVANCE AUTO PARTS•SPA (0318)
TABLA RESUMEN DE LA CUENTA*
Tasas de interés y cargos por interés
Tasa de Porcentaje Anual
28.99%
(APR) para las Compras
La fecha de vencimiento del pago es de por lo menos 25 días después del cierre de
Cómo evitar el pago de
cada
ciclo de facturación. No le cobraremos intereses por las compras si paga el
intereses

Cargo de interés mínimo:
Para Consejos para tarjetas
de Crédito de la Sección de
Protección Económica del
Consumidor
Tarifas
Cargos anuales
Penalidades
• Cargo por pago
atrasado
• Cargo por pago
devuelto

saldo completo para la fecha de vencimiento todos los meses.
Si se le carga el interés, el cargo no será menos de $2.00.

Para aprender más sobre los factores que se deben tener en cuenta
cuando se solicite o use una tarjeta de crédito, visite la página web de
la Oficina para la Protección Financiera al Consumidor
http://www.consumerfinance.gov/learnmore
Ninguno

Hasta $37
Hasta $35

Cómo calcularemos su saldo: Usaremos el método del “Saldo Promedio Diario (incluso para las transacciones nuevas)”. Vea la
Sección 3 de su Contrato de Tarjetahabiente para más detalles.
Derechos de facturación: La información sobre su derecho de disputar transacciones y cómo ejercer esos derechos se
proporciona en su Contrato de Tarjetahabiente.
La tasas actuales de la Cuenta: La Tasa Periódica Diaria para compras estándar es 0.079424% (lo que corresponde a una APR de 28.99%).
SU CONTRATO DE TARJETAHABIENTE CON NOSOTROS
En el presente Contrato de Tarjetahabiente (el “Contrato”) “usted” y “suyos” quiere decir el/los prestatario(s) y “nosotros” y el “Banco” quieren decir TD Bank, N.A., el emisor de su tarjeta de crédito (la
“Tarjeta”) Toda extensión de crédito relacionada con la cuenta de la tarjeta de crédito (la “Cuenta”) la hace el Banco. El presente Contrato establece los términos de la Cuenta y lo debe guardar con sus papeles
importantes. Con su firma al hacer su primera compra, quedarse con o de otro modo aceptar la Tarjeta o Cuenta, indica que está de acuerdo con los términos y condiciones del Contrato. El presente Contrato
quiere decir este documento y la Tabla Resumen de la Cuenta, adjunta, y cualquier cambio que le hagamos a esos documentos de vez en cuando.
1. Su promesa de pagar y cómo usar su cuenta: Usted (y cualquier persona que nos haya designado como usuario autorizado (“Usuario Autorizado”)) tendrá que firmar la tarjeta para usarla. Usted será
responsable de todo uso de la Tarjeta o Cuenta por usted o cualquier persona con autoridad real, implícita o aparente para actuar en su nombre o usar la Tarjeta o Cuenta, incluso pero no limitado a cualquier
Usuario Autorizado. Cualquier uso de ese tipo constituye aceptación de todos los términos y condiciones del presente Contrato, aunque el presente Contrato no está firmado.
Usted nos autoriza pagar por cualquier y toda compra que sea el resultado del uso de la Tarjeta o Cuenta (cada una la “Compra”) y cargarlas a su Cuenta. Usted promete pagarnos (en dólares de los Estados
Unidos (USD) tramitados a través de bancos de los Estados Unidos) por todas estas Compras, según lo exige el presente Contrato, más por todo otro tipo de cargo que se deba según el presente Contrato
(incluso, sin limitaciones, por todas las Compras hechas o usadas por un Usuario Autorizado).
El uso de la Tarjeta o la Cuenta puede incluir el uso físico, pedidos por correo o teléfono, transacciones por computadora u otras transacciones electrónicas sin presentar la Tarjeta, o cualquier otra circunstancia
en la que usted autorice un cargo o autorice a otra persona a que haga el cargo a su Cuenta. Usted está de acuerdo en usar la Tarjeta y la Cuenta solo para sus propios objetivos legales personales, familiares
o del hogar. Usted está de acuerdo en que usted y cada Usuario Autorizado no usará la Tarjeta ni la Cuenta para ningún objetivo de negocios ni comercial ni para ningún objetivo ilícito o ilegal. Dichas
transacciones ilícitas o ilegales incluyen sin estár limitadas ellas, las transacciones de juego en línea y cualquier transacción de apuestas ilegales según la ley correspondiente, incluso la compra de billetes de
lotería o chips de casinos o apuestas y jugadas fuera del hipódromo [“off-track”] Nos reservamos el derecho de bloquear todas las transacciones de ese tipo. Sin embargo, en el caso de que un cargo o transacción
descrito en esta divulgación se apruebe y se procese, usted todavía será responsable del cargo hasta el máximo alcance permitido por la ley correspondiente. Si esta es una cuenta mancomunada, es posible
que le exijamos que pague toda la cantidad que se deba sin pedirle primero a otra persona que pague.
2. Sobre las ofertas de financiamiento que puedan estar a su disposición:
a. Generalmente: No obstante cualquier otra disposición del presente Contrato, ocasionalmente podemos, a opción nuestra, tener ciertas ofertas de financiamiento disponibles para ciertos tipos
de Compras (“Ofertas Promocionales”) Los detalles de la Oferta Promocional estarán descritos en la oferta específica. Entre otras cosas, las características de las Ofertas Promocionales pueden incluir
períodos sin intereses; intereses pospuestos y perdonados si se paga la compra por completo dentro del período de promoción (y que todas las otras condiciones se hayan satisfecho); tasas de interés
reducidas; y/o condiciones de pago especiales, incluso pagos más altos que de otro modo se hubieran requerido. Los beneficios de las Ofertas Promocionales pueden depender del pago de mi cuenta según
el presente Contrato y / o las Ofertas Promocionales. La información sobre las Ofertas Promocionales aparecerá por separado en su cuenta mensual (la “Cuenta”) durante el tiempo que la Oferta Promocional
tenga vigencia. Si usted usa su Cuenta con una Oferta Promocional, reconoce y está de acuerdo en que las condiciones específicas de la Oferta Promocional modificarán al presente Contrato y formarán parte
del mismo y todas las otras condiciones y términos del presente Contrato estarán sujetas a la Oferta Promocional. Las disposiciones estándar del presente Contrato corresponden a todas las transacciones
que no estén sujetas a la Oferta Promocional. Sujetos a las leyes correspondientes, cualquier Oferta Promocional puede estar condicionada por nosotros en que usted cumpla con los requisitos
especificados y podemos no permitirle que participe en Ofertas Promocionales adicionales, si las hay, si se atrasa en hacer cualquier pago.
b. Ofertas Promocionales que es posible que tenga a su disposición: Si hay una Oferta Promocional disponible en el momento en que hace la compra, recibirá información en ese momento
sobre los términos de la oferta. Es posible que se requiera que compre cantidades mínimas para que una compra sea elegible para el financiamiento por una Oferta Promocional determinada. También
es posible que existan otras restricciones. Los términos específicos del tipo de Ofertas Promocionales que pongamos a su disposición de vez en cuando para ciertas transacciones se establecen abajo, en la
Sección 2; siempre y cuando, sin embargo, dichos términos puedan ser modificados o suplementados por los términos establecidos en o con el comprobante de pago que recibió cuando hizo la compra.
c. Ejemplos de Ofertas Promocionales que es posible que tenga a su disposición:
Ofertas Promocionales con interés diferido y con términos estándar de pago: En este tipo de Oferta Promocional, se impondrán a la cuenta los cargos por intereses diferidos de acuerdo con la APR para
Compras estándar (que aparece en la sección Tasas de Interés y Cargos por Interés de la Tabla del Resumen de la Cuenta (la “tabla de Tasas de Interés y Cargos por Interés”)) desde la fecha de la compra hasta
que termine el período de promoción. Si los pagos a la Cuenta se han hecho a tiempo durante el período promocional y el saldo promocional de la Compra se ha pagado por completo dentro del período
promocional, no se aplican los cargos por interés diferidos.
Si el saldo de la compra promocional no se paga por completo para la fecha en que vence la promoción, la cantidad total diferida de los cargos por interés se le añadirá a su Cuenta. Después que haya vencido
la Oferta Promocional, se continuará cargando el interés en el saldo restante (y también por cualquier interés diferido calculado) usando la APR para Compras estándar actual en ese entonces que aparece en
la tabla de Tasas de Interés y Cargos por Interés, hasta que el saldo restante se pague por completo.
Para este tipo de Oferta Promocional, se calcula el pago mínimo relacionado con el saldo promocional de acuerdo con la Sección 5 del presente Contrato. Si solo hace el pago mínimo mensual durante el
tiempo de esa Oferta Promocional, no habrá pagado el saldo promocional al final del período promocional y se le cargará el interés diferido. Se requieren pagos mayores que la cantidad mínima debida
indicada en la Cuenta para pagar el saldo promocional y evitar tener que pagar los intereses diferidos. El período de la Oferta Promocional para este tipo de oferta generalmente será de 6 meses.
3. Cómo calculamos los cargos por interés de su Cuenta:
a. El interés y cualquier cargo mínimo por intereses. Durante cada ciclo de facturación, nosotros determinamos por separado los cargos por interés en las Compras estándar y en cada tipo
separado de Compras promocionales (cada uno, un “”Tipo de Saldo”“).” Por cada Tipo de Saldo, nosotros determinamos los cargos por interés de cada ciclo de facturación al multiplicar el Saldo Sujeto a la
Tasa de Interés por la Tasa Periódica Diaria aplicable (vea la información sobre la Tasa de Interés en la Sección 4) y luego multiplicamos el resultado por la cantidad de días en el ciclo de facturación. Para cada
Tipo de Saldo, el Saldo Sujeto a la Tasa de Interés es el saldo promedio diario (incluidas las nuevas transacciones) según se calcule de acuerdo con la Sección 3.b a continuación. Para obtener el total de los

cargos por interés de cada ciclo de facturación, se suman los cargos por interés de todos los Tipos de Saldos. Si se le carga interés en un ciclo de facturación, cargaremos el Cargo Mínimo por Interés (o
“Cargo Mínimo”) a su Cuenta si el cargo total por interés en ese ciclo de facturación es menos de $2.00. Si se le aplica un cargo mínimo de interés a su factura en un ciclo de facturación, aparecerá en ella
como “Cargo Mínimo” y estará incluído en la sección “Intereses impuestos” de la factura.
b. Cómo calcularemos los intereses en su cuenta: Usaremos el método llamado “Saldo Promedio Diario (incluimos las transacciones nuevas)” para calcular el cargo por intereses. Para cada
Tipo de Saldo, el Saldo Sujeto a la Tasa de Interés es el total de los saldos de cierre diario para dicho Tipo de Saldo en todos los días del ciclo de facturación (el saldo negativo se trata como $0) dividido entre
la cantidad de días que hay en dicho ciclo. Generalmente, el saldo de cierre diario para cada Tipo de Saldo equivale al saldo al iniciar el día más cualquier transacción nueva del mismo Tipo de Saldo menos
cualquier pago aplicado a dichas transacciones. Al principio de cada ciclo de facturación, el saldo de cierre diario de cada Tipo de Saldo también incluirá cualquier cargo aplicable por intereses y los cargos
continuados del ciclo de facturación inmediatamente anterior; y, en el caso de una Oferta Promocional con intereses diferidos, incluirá cualquier cargo por interés que se pueda haber calculado sobre el saldo
promocional que no se haya pagado para el final del período de la Oferta Promocional.
c. Cómo se acumulan los intereses y cómo evitar pagar intereses por las Compras: En cada compra, el interés se empieza a acumular en la fecha de la transacción. Por lo general, puede evitar
pagar intereses por Compras estándar en cualquier ciclo dado de facturación si paga por completo el saldo a la fecha de cierre de la cuenta (identificado en su Cuenta como “Saldo Nuevo”) en ese ciclo de
facturación para la Fecha de Vencimiento del Pago que se indica en esa Cuenta.
Si tiene un saldo promocional (o saldos) en la Cuenta, todavía le puede ser posible evitar pagar interés en las Cuentas estándar siempre y cuando pague para la Fecha de Vencimiento del Pago la cantidad que
equivalga al Pago Mínimo Adeudado en ese ciclo de facturación más el total del saldo estándar de Compras pendiente el primer día de ese ciclo de facturación.
Para cada Tipo de Saldo que sea un tipo de Compra promocional por separado, vea la Sección 2 del presente Contrato para más información sobre cómo evitar pagar intereses por esas transacciones.
d. Cómo se tratan los Cargos por Mora (Atraso) y por Pagos Devueltos: El Banco no cobra interés en los Cargos por Atraso (por Mora) o Cargos por Pagos Devueltos.
4. Las Tasas de Interés de su Cuenta: La “Tasa de Porcentaje Anual” o “APR” es la tasa de interés anual que se cobra por los saldos de la Cuenta. En lo que se refiere a una promoción especial, podemos
cargar una tasa de interés promocional rebajada (que pudiera ser tan baja como una APR de 0%). La Tasa Periódica Diaria será igual al APR dividido entre 365.
5. Tiene que hacer un pago mínimo todos los meses: En cada ciclo de facturación, usted está de acuerdo en pagar, por lo menos, la cantidad mínima que se indica en su Cuenta mensual (la “Cantidad Mínima
Adeudada”) a más tardar para la fecha de vencimiento del pago. La fecha para pagar la Cantidad Mínima Adeudada será el mismo día todos los meses (“Fecha de Vencimiento del Pago”) según se ve en la
Cuenta (lo que será al menos 25 días después de la fecha del cierre de la cuenta todos los meses)
La Cantidad Mínima Adeudada se calculará de la manera siguiente:
(1) 3.5% del saldo por pagar en cada Tipo de Saldo (incluso cargos por intereses calculados en cada Tipo de Saldo aplicable) redondeado hasta el dólar más cercano; más
(2) todo pago que venza relacionado con cada saldo sujeto a una Oferta Promocional en la que se calcule un pago especial según se describe en la Sección 2 de este Contrato, redondeado hasta
el dólar más cercano; más
(3) cualquier tipo de cargo aplicable (excepto cargos por intereses) calculados en ese ciclo de facturación en particular; más
(4) cualquier pago atrasado.
Esa cantidad entonces se redondea al dólar más cercano.
Los créditos, ajustes, devoluciones y transacciones parecidas de la Cuenta no se pueden usar para remplazar el pago de ninguna parte del pago mínimo requerido. Si paga por adelantado con una cantidad
mayor que el Pago Minimo Adeudado en un ciclo de facturación, no se le excusará de hacer al Pago Mínimo Adeudado en los ciclos de facturación subsiguientes.
6. Si se atrasa en el pago, se le cobrará un Cargo por Atraso (Mora): La primera vez que no se reciba el Pago Mínimo Adeudado para el Día de Vencimiento del Pago que aparece en la Cuenta, le podemos
cobrar un cargo por atraso en una cantidad que equivalga al Pago Mínimo Adeudado o $27, lo que sea menos. Si durante los próximos seis ciclos de facturación no se recibe el Pago Mínimo Adeudado para
el Día de Vencimiento del Pago que aparece en la Cuenta, le cobraremos un cargo por atraso en una cantidad que equivalga al Pago Mínimo Adeudado o $37, lo que sea menos. Usted entiende y está de acuerdo
que, a opción nuestra, dicho cargo por atraso se considerará vencido y pagadero inmediatamente.
7. Si se devuelve un pago, se le cobrará un Cargo por Pago Devuelto: La primera vez que pague con un cheque y su institución financiera nos devuelva el cheque sin pagar o rechazado, le podemos cobrar
cargos por pago devuelto por una cantidad igual al Pago Mínimo Adeudado o $25, lo que sea menos. Si durante los próximos seis ciclos de facturación, paga con un cheque y su institución financiera nos
devuelve el cheque sin pagar o rechazado, le cobraremos cargos por pago devuelto por una cantidad igual al Pago Mínimo Adeudado o $35, lo que sea menos. Usted entiende y está de acuerdo que, a opción
nuestra, dicho cargo por pago devuelto se considerará vencido y pagadero inmediatamente.
8. Cargos administrativos: Si pide una copia de una Cuenta o un comprobante de venta o un cheque de pago, impondremos un cargo siempre y cuando no esté prohibido por las leyes correspondientes. La
cantidad del cargo se le dirá cuando pida este servicio opcional. Sin embargo, no se le cobrará por copias de las Cuentas, comprobantes de compra ni otro documentos que pida por un error/investigación
sobre la facturación que puede reclamar según la ley correspondiente.
9. El límite de su crédito:
a. Generalmente: El límite de crédito inicial de su Cuenta se indica en los materiales que acompañan la Tarjeta o Tarjetas que le mandamos cuando se abre la Cuenta. El límite actual de crédito
en la Cuenta se le indicará en la Cuenta mensual También puede llamar al Servicio al Cliente al número que aparece al dorso de su Tarjeta para averiguar cuál es su límite de crédito actual.
b. Cambios al límite de su crédito: A nuestro juicio, en cualquier momento y sujeto a las leyes aplicables, podemos aumentar o rebajar el límite de crédito que corresponde a su Cuenta sin
notificación previa a usted. Le haremos la notificación de cualquier cambio de ese tipo por correo y el límite de su crédito aparecerá en la Cuenta. Usted nos puede pedir que cambiemos el límite de su crédito
poniéndose en contacto con Servicio al Cliente llamando al número que aparece al dorso de su tarjeta Nosotros no tenemos que aceptar ningún pedido de ese tipo.
c. Sobrepasar el límite de su crédito: Usted está de acuerdo en no sobrepasar el límite de su crédito. También está de acuerdo en que el Banco puede permitirle que sobrepase su límite pero
que no está obligado a hacerlo. Si su Cuenta sobrepasa el límite de su crédito, usted está de acuerdo en pagar la cantidad que sobrepase el límite cuando se la facturen o antes, si lo pedimos. Si le permitimos
sobrepasar el límite de su crédito, no habremos renunciado a ninguno de nuestros derechos según el presente Contrato y no tendremos que permitir que sobrepase el límite de su crédito en una fecha
posterior.
10. Las facturas mensuales de su Cuenta: Si las leyes correspondientes lo exigen, le mandaremos la Cuenta todos los meses a la dirección que obra en nuestros documentos.
11. Cómo se aplican sus pagos al saldo de su Cuenta: Sujeto a lo siguiente y a las leyes correspondientes, por lo general, los pagos se aplicarán primero a las Compras más antiguas.
a. Cómo se aplica el Pago Mínimo a su Cuenta: Por lo general, aplicaremos el Pago Mínimo Adeudado en el órden siguiente: (i) a cargos por intereses y otros cargos; (ii) a las transacciones
de compras con las Tasas Periódicas Diarias más bajas y las APR correspondientes.
b. Cómo se aplican los pagos que sobrepasen que el pago mínimo. Por lo general, aplicaremos los pagos y créditos que sobrepasen al Pago Mínimo Adeudado en el órden siguiente: (i) a las
transacciones de compra con las Tasas Periódicas Diarias más altas y a las APR correspondientes; (ii) a las transacciones de compra con las Tasas Periódicas Diarias más bajas y las APR correspondientes;
y (iii) a los cargos por intereses y otros cargos.
c. Aplicación de los pagos durante el período de una Oferta Promocional con intereses diferidos: Si en su Cuenta hay una Oferta Promocional, o más, que tiene los intereses diferidos (a las
que le dijeron que no se le cargarían intereses si paga el saldo promocional por completo para cuando termine el período promocional), los pagos se aplicarán de modo diferente durante los dos ciclos de
facturación previos al vencimiento del plan promocional con intereses diferidos para asegurar que la mayor parte posible del saldo pendiente se pague antes de que termine el período promocional. Aplicaremos
cualquier pago que sobrepase el Pago Mínimo Adeudado al saldo del plan promocional. Si vence más de un período promocional cuando se reciba el pago que sobrepase el Pago Mínimo Adeudado, podemos
aplicar el pago de cualquier manera que lo permita la ley correspondiente. Vea la Sección 2 del presente Contrato así como las divulgaciones entregadas en el momento de la oferta de interés diferido para
más información sobre este tipo de oferta promocional.
12. Cómo puede hacer los pagos de la Cuenta: SEGÚN EL PRESENTE CONTRATO, EN CUALQUIER MOMENTO PUEDE PAGAR TODO EL SALDO SIN PAGAR O PARTE DEL SALDO SIN PAGAR. Para los objetivos
de esta Sección 12, el término “día laborable del Banco” o “día laborable” quiere decir de lunes a sábado (días de fiesta bancarios excluidos).
a. Pagos por correo: Los pagos tendrán que ser enviados a la dirección designada en la Cuenta. Los pagos recibidos en dicha dirección, con la parte de la cuenta que hay que devolver, a más
tardar a las 5 de la tarde hora del este de los Estados Unidos un día laborable se acreditarán el día en que se reciban. Sin embargo, si la fecha de vencimiento del pago cae en un día en que no aceptamos
pagos, el Banco no considerará ningún pago como atrasado si el Banco lo recibe antes de las 5 de la tarde, hora del este de los Estados Unidos, el siguiente día laborable. Los pagos que se reciban después
de las 5 de la tarde de lunes a viernes (con la excepción de días de fiesta bancarios) se acreditarán el siguiente día hábil.
Puede haber un atraso de cinco (5) días en acreditar los pagos que no se hagan en USD (dólares de EE.UU.), que no se hagan en el sobre proporcionado con el Estado de Cuenta y acompañados con el
comprobante de pago que forma parte de la Cuenta y / o que no se reciban en la dirección que se ha designado en la Cuenta para hacer los pagos. Tendrá que tener en cuenta hasta siete (7) días para la entrega
de su pago por el Servicio Postal de Estados Unidos. Los pagos se deben hacer con cheque o giro postal pagadero en fondos de los Estados Unidos y girado en una institución financiera dentro de los Estados
Unidos No aceptamos pagos para esta Cuenta en nuestras sucursales.
Es posible que la cantidad del pago no se añada inmediatamente al crédito que tiene disponible hasta que pasen siete (7) días para asegurarnos que cobremos los fondos del banco con el que hace
su pago. Si se sobrepasa en el pago o si hay un saldo de crédito en su Cuenta, no se le pagarán intereses por esa cantidad.
b. Pago automatizado de cuentas con teléfonos marcados por tono: Cuando llame al Banco al 1-888-382-6665 y use el servicio automatizado para pagar cuentas, nos puede autorizar a nosotros
o a nuestro agente a que automáticamente se inicie un único débito ACH a su cuenta corriente. Tendrá que ingresar su número de cuenta y su código postal para poder autenticarlo. Al usar este servicio,
autoriza a su institución financiera a que acepte estos débitos y que se los cargue a su cuenta bancaria. Los arreglos de pago que se hagan a más tardar a las 5 de la tarde, hora del este de los Estados Unidos,
en días laborales se acreditarán el mismo día. Los arreglos de pago hechos después las 5 de la tarde, hora del este de los Estados Unidos, día laborable o no laborable, se acreditarán el siguiente día laborable.
Éste es un sistema seguro y la información de su institución financiera no se compartirá por ninguna razón que no sean los pagos automáticos.
c. Pagos telefónicos hechos el mismo día: También puede llamarnos y hacer los arreglos para un pago acelerado a través de un representante de servicio al cliente. Al hacer eso, nos autorizará
a nosotros o a nuestro agente a iniciar automáticamente un único débito ACH a su cuenta corriente y autorizará a su institución financiera a aceptar esos débitos y cargarlos a su cuenta corriente. Los arreglos
de pago que se hagan antes de las 5 de la tarde, hora del este de los Estados Unidos en días laborables, se acreditarán el mismo día y los arreglos de pago hechos después de las 5 de la tarde, hora del este
de los Estados Unidos en un día laborable o no laborable, se acreditarán el día laborable siguiente.

d. Transferencia electrónica de fondos: Si usa un cheque para hacer pagos a este Cuenta, nos autoriza ya sea a usar la información del cheque para hacer una vez la transferencia electrónica
de fondos de su cuenta corriente o de depósito o para procesar el pago como una transacción con cheque. Cuando usemos la información de su cheque para hacer una transferencia electrónica de fondos,
se pueden retirar los fondos de su cuenta corriente o de depósito tan pronto como el mismo día que haga el pago y usted entiende que es posible que su institución financiera no le devuelva el cheque.
13. Si devuelven sin pagar el pago que hizo: Si su banco no acepta un pago hecho por usted y ya nosotros lo hemos acreditado a su Cuenta, invertiremos el crédito y volveremos a añadir la cantidad del
pago a su Cuenta desde el día que se acreditó el pago a su Cuenta por vez primera.
14. Pago irregular y retraso en el cumplimiento: Es posible que aceptemos pagos atrasados, pagos parciales, cheques y giros postales marcados “Pagado por completo” o lenguaje que tenga el mismo
efecto sin perder ninguno de nuestros derechos según el presente Contrato. También podemos retrasar que se cumplan nuestros derechos según el presente Contrato cualquier cantidad de veces sin que los
perdamos. Si en cualquier momento aceptamos una compra que sobrepase su límite de crédito máximo, no estamos obligados a hacerlo en ningún otro momento.
15. Si tiene un saldo de crédito: Nosotros haremos un esfuerzo de buena fe para devolverle cualquier saldo de crédito a favor de más de $1.00 en su Cuenta si el saldo de crédito a favor lleva más de seis
(6) meses en su Cuenta (o, a nuestro juicio, un período más corto). También podemos solicitar la devolución de un saldo a favor en su Cuenta en cualquier momento enviando su solicitud a Customer Service
a P.O. Box 731 Mahwah, New Jersey 07430, por correo prioritario con el franqueo prepagado. Nosotros podemos reducir la cantidad de cualquier saldo a favor de su Cuenta aplicando el saldo a favor a los
cargos nuevos de la Cuenta.
16. Compras hechas por sus Usuarios Autorizados: Podemos permitirle que tenga Usuarios Autorizados que puedan usar su Cuenta. Cuando permite que un Usuario Autorizado use su cuenta, usted será
responsable de todas las transacciones hechas por esa persona, incluso las transacciones por las que usted no tenía la intención de ser responsable y aún si la cantidad de la responsabilidad causa que sobrepase
el límite de su crédito Tiene que notificarnos que quiere que revoquemos su permiso para dejar que un Usuario Autorizado use su Tarjeta o su Cuenta llamando al número de teléfono que aparece al dorso de
su Tarjeta Hasta que usted no revoque su permiso, sigue siendo responsable de todos los cargos hechos por el Usuario Autorizado, aunque usted no haya tenido la intención de ser responsable.
17. Contrato Completo: Usted está de acuerdo en que el presente Contrato (según se enmiende y suplemente de vez en cuando), incluso la Tabla Resumen de la Cuenta y la solicitud constituyen la expresión
definitiva del Contrato entre usted y nosotros y que el presente Contrato no se puede contradecir por evidencia de ningún acuerdo oral previo, contemporáneo o subsiguiente, entre nosotros y usted, relacionado
con su Cuenta. La tienda al detalle y sus empleados no tienen la autoridad de cambiar, añadir algo a o explicar las condiciones de este Contrato excepto para proporcionarle nuestras Ofertas Promocionales.
Para más información o preguntas, llame a Servicio al Cliente al número que aparece al dorso de su Tarjeta.
18. Si deja de cumplir con el presente Contrato: Usted está de acuerdo que se encontrará en estado de incumplimiento y no estaremos obligados a aceptar ningún intento de usar su Cuenta (aunque no le
hayamos notificado previamente) si ocurre cualquiera de los sucesos siguientes:
•
Si no recibimos el pago mínimo exigido antes de las 5 de la tarde, hora del este de los Estados Unidos, en la Fecha de Vencimiento del Pago acompañado por el talón de pago de la
cuenta (si es por correo) o, si no recibimos ningún otro pago exigido por el presente Contrato, para la fecha de vencimiento de dicho pago.
•
Si sobrepasa el límite de crédito.
•
Si muere o lo declaran legalmente incapacitado o incapaz de manejar sus propios asuntos, si se vuelve insolvente, se declara en bancarrota o de otro modo es el sujeto de una petición
o presentación de bancarrota.
•
Si nos da información falsa o engañosa relacionada con su Cuenta en cualquier momento.
•
Si nos manda un cheque o instrumento similar que le devuelvan sin pagar o cualquier pago automático, electrónico o de otro tipo a su Cuenta que no pueda ser procesado o que se
devuelva sin pagar por cualquier razón dentro de los últimos seis (6) ciclos de facturación.
•
Si deja de cumplir con el presente Contrato o si no cumple con alguna de las condiciones del mismo.
•
Si tenemos razón para sospechar que usted o cualquier Usuario Autorizado pueda haber participado en cualquier actividad en su Cuenta que haya sido rara, sospechosa, fraudulenta
o ilegal.
•
Si usted no nos proporciona sin demora, después de habérsela pedido, ninguna información actualizada sobre sus finanzas, empleo o cualquier otra información que podamos pedir
razonablemente.
Al ocurrir el incumplimiento: (a) no estaremos obligados aceptar ningún intento de usar su Cuenta (aunque no le hayamos dado notificación previa); (b) podemos exigirle que pague inmediatamente todo o
parte del saldo pendiente en la Cuenta; y (c) podemos ejercer cualquier derecho proporcionado por el presente Contrato o la ley aplicable.
19. Su responsabilidad por uso no autorizado: Si se le pierde la Tarjeta o se la roban o, si cree que alguien pueda haber usado su Cuenta sin permiso, tiene que notificarnos enseguida. Puede que usted sea
responsable por el uso no autorizado de su Cuenta. No será responsable por el uso no autorizado que ocurra después que nos notifique de la pérdida o robo de su tarjeta o del posible uso no autorizado de
su Cuenta por escrito al P.O. Box 731 Mahwah NJ 07430 o verbalmente llamando a Servicio al Cliente al 1-800-252-2551. Su responsabilidad máxima es de $50 sujetos a cualquier restricción de las leyes
correspondientes, podemos darle fin a su Cuenta o limitar su acceso a la misma si nos ha notificado o hemos determinado que su Tarjeta se puede haber perdido o puede haber sido robada o que puede haber
uso no autorizado de su Cuenta.
20. Cierre de su Cuenta:
a. Nosotros podemos cerrar su Cuenta en cualquier momento: Sin notificación previa podemos suspender o cerrar su Cuenta para nuevas transacciones en cualquier momento, por cualquier
razón, incluso pero sin estar limitadas al cambio en su solvencia o inactividad en la Cuenta. Si suspendemos o cerramos su Cuenta a las nuevas transacciones, usted está de acuerdo en pagarnos todo lo que
nos debe según el presente Contrato (incluso cualquier cargo futuro por intereses o tarifas) según los términos y condiciones del presente Contrato y usted está de acuerdo en que no tenemos ninguna
responsabilidad con usted por consecuencias que sean el resultado del cierre de su Cuenta. Si usted está en estado de incumplimiento, podemos cerrar su Cuenta y exigirle que nos pague la cantidad
completa que debe según el presente Contrato inmediatamente. Nosotros también podemos aumentar la cantidad monetaria de su pago mínimo, sujeto a las leyes correspondientes. Si cerramos su cuenta
para recibir transacciones nuevas, inmediatamente tiene que destruir todas las Tarjetas y otros recursos de acceso a la Cuenta (corte, rompa o de otro modo dáñelos a propósito para evitar el uso no autorizado
por terceros)
b. Usted nos puede pedir que cerremos su Cuenta: En cualquier momento usted nos puede pedir que cerremos su Cuenta para recibir transacciones nuevas notificándole a Customer Service,
P.O. Box 731 Mahwah, New Jersey 07430 por correo prioritario con franqueo prepagado y devolviendo todas las Tarjetas y recursos de acceso a la Cuenta (cortados, rotos o de otra forma dañados a propósito
para evitar el uso no autorizado por terceros) junto con la notificación por escrito o poniéndose en contacto con nosotros llamando al departamento de Servicio al Cliente al número que aparece al dorso de
su Tarjeta. Si solicita que cerremos su Cuenta por teléfono, nosotros nos reservamos el derecho de exigir que nos envíe una notificación por escrito. También está de acuerdo en dejar de usar la Cuenta
inmediatamente después de nos notifique que quiere que cerremos su Cuenta para aceptar transacciones nuevas.
21. La dirección de su Cuenta y las notificaciones que le mandamos: Las cuentas de facturación y las notificaciones se mandarán a la dirección que tenemos en nuestros archivos y usted nos informará
rápidamente cualquier cambio en su dirección de correo electrónico o su dirección postal. Puede cambiar la dirección escribiéndonos a Customer Service, P.O. Box 731, Mahwah, New Jersey 07430 o
llamándonos al número que aparece al dorso de su Tarjeta. A nuestro juicio, podemos aceptar cambios en su dirección postal del Servicio de Correos de EE.UU. Si esta Cuenta es mancomunada, le podemos
mandar las cuentas de facturación y las notificaciones a cualquiera de los dos titulares.
22. Nuestros derechos continúan: Cualquier falta o retraso en ejercer cualquiera de nuestros derechos según el Contrato no descartará que más adelante ejerzamos esos derechos.
23. Cambios al presente Contrato: Nosotros podemos cambiar el presente Contrato, sujetos a las leyes correspondientes, en cualquier momento y de vez en cuando. Por ejemplo, pueden cambiar la
dirección y números de teléfono que debe usar para ponerse en contacto con nosotros, cambiar los cargos, añadir cargos nuevos, cambiar las tasas de interés y fórmula de tasas que correspondan a su Cuenta,
aumentar el pago mínimo adeudado o añadir, borrar o modificar términos no económicos. Le notificaremos de cualquier cambio al presente Contrato según lo exigen las leyes correspondientes. Cualquier
cambio, incluso cualquier aumento o rebaja en las APR de su Cuenta, tendrá vigencia en el momento que indique nuestra notificación y se aplicará a los saldos de su Cuenta, incluso a las transacciones nuevas,
como lo describimos en nuestra notificación. Le mandaremos por correo la notificación de cualquier cambio requerido en las condiciones a la dirección de su Cuenta que tenemos archivada.
24. Su comportamiento crediticio: Su Cuenta se ha establecido basados en los criterios que reflejan su historial crediticio en particular y de vez en cuando revisaremos su comportamiento crediticio. Si no
mantiene el nivel previo de comportamiento crediticio, podemos cambiar algunos o todos los términos de su Cuenta y le notificaremos los cambios hechos de acuerdo con la ley correspondiente.
25. Su información crediticia y su reporte crediticio; Usted nos autoriza obtener reportes crediticios relacionados con el presente Contrato y de vez en cuando relacionados con el repaso de su Cuenta o
cualquier actualización, extensión o renovación de su Cuenta y con el objetivo del cobro de su Cuenta. Usted nos autoriza verificar con otros cualquier información y proporcionar información sobre nuestras
transacciones con usted a terceros (incluso agencias que reportan sobre el consumidor, comerciantes y otros prestamistas) con motivos lícitos. USTED ENTIENDE QUE PODEMOS REPORTAR INFORMACIÓN
SOBRE SU CUENTA A LAS AGENCIAS CREDITICIAS. SUJETO A LAS LEYES CORRESPONDIENTES. LOS PAGOS ATRASADOS, PAGOS QUE NO SE HAGAN U OTRAS FALTAS DE CUMPLIMIENTO EN SU
CUENTA SE PUEDEN REFLEJAR EN SU REPORTE CREDITICIO.
26. Como disputar los reportes crediticios sobre su Cuenta: Si usted cree que la información que nosotros le presentamos a las agencias de reportes crediticios sobre su Cuenta no está correcta, nos debe
escribir a P.O. Box 731, Mahwah, NJ 07430 Attn: Credit Report Dispute (Disputa sobre el informe crediticio). Si no nos escribe a esa dirección puede haber retrasos. Para que nosotros podamos investigar
su disputa, tendrá que proporcionarnos su nombre, dirección y número de teléfono; el número de la Cuenta que disputa y porqué cree que hay algo que no está correcto. Nosotros completaremos la
investigación y le notificaremos las conclusiones y, si es necesario, lo que se ha rectificado. Usted entiende que llamarnos no conservará sus derechos.
27. Su autorización para el discado automático y el monitoreo/grabación de las llamadas: Se le pueden hacer llamadas telefónicas usando un aparato que le notifica de la llamada automática. Sus
conversaciones telefonicas con nuestros empleados o agentes pueden ser supervisadas y/o grabadas. También es posible que supervisemos y grabemos el correo o las conversaciones de nuestras páginas
Web llevadas a cabo entre usted y nosotros o usted y nuestros agentes, ya hayan sido iniciadas por usted o por nuestros agentes. El uso de su Cuenta significará que usted da su consentimiento a dicho uso
de un aparato que da la notificación de discado automático, a la supervisión y/o la grabación.
28. Números de teléfono que podemos usar para ponernos en contacto con usted. Cuando nos da su número de teléfono móvil, nos da su permiso para ponernos en contacto con usted a ese número
sobre todas sus cuentas con TD Bank. Su consentimiento nos permite usar mensajes de texto, mensajes de voz artificiales o grabados con anticipación y tecnología de discado automático para las llamadas
de servicio a la cuenta e informativas pero no para llamadas de telemercadeo o de ventas. Puede incluir el contacto con compañías que trabajan a nombre nuestro para prestar servicio a sus cuentas. Es
posible que correspondan las tarifas de mensajes y datos. Se puede poner en contacto con nosotros en cualquier momento para cambiar estas preferencias.

cargos por interés de cada ciclo de facturación, se suman los cargos por interés de todos los Tipos de Saldos. Si se le carga interés en un ciclo de facturación, cargaremos el Cargo Mínimo por Interés (o
“Cargo Mínimo”) a su Cuenta si el cargo total por interés en ese ciclo de facturación es menos de $2.00. Si se le aplica un cargo mínimo de interés a su factura en un ciclo de facturación, aparecerá en ella
como “Cargo Mínimo” y estará incluído en la sección “Intereses impuestos” de la factura.
b. Cómo calcularemos los intereses en su cuenta: Usaremos el método llamado “Saldo Promedio Diario (incluimos las transacciones nuevas)” para calcular el cargo por intereses. Para cada
Tipo de Saldo, el Saldo Sujeto a la Tasa de Interés es el total de los saldos de cierre diario para dicho Tipo de Saldo en todos los días del ciclo de facturación (el saldo negativo se trata como $0) dividido entre
la cantidad de días que hay en dicho ciclo. Generalmente, el saldo de cierre diario para cada Tipo de Saldo equivale al saldo al iniciar el día más cualquier transacción nueva del mismo Tipo de Saldo menos
cualquier pago aplicado a dichas transacciones. Al principio de cada ciclo de facturación, el saldo de cierre diario de cada Tipo de Saldo también incluirá cualquier cargo aplicable por intereses y los cargos
continuados del ciclo de facturación inmediatamente anterior; y, en el caso de una Oferta Promocional con intereses diferidos, incluirá cualquier cargo por interés que se pueda haber calculado sobre el saldo
promocional que no se haya pagado para el final del período de la Oferta Promocional.
c. Cómo se acumulan los intereses y cómo evitar pagar intereses por las Compras: En cada compra, el interés se empieza a acumular en la fecha de la transacción. Por lo general, puede evitar
pagar intereses por Compras estándar en cualquier ciclo dado de facturación si paga por completo el saldo a la fecha de cierre de la cuenta (identificado en su Cuenta como “Saldo Nuevo”) en ese ciclo de
facturación para la Fecha de Vencimiento del Pago que se indica en esa Cuenta.
Si tiene un saldo promocional (o saldos) en la Cuenta, todavía le puede ser posible evitar pagar interés en las Cuentas estándar siempre y cuando pague para la Fecha de Vencimiento del Pago la cantidad que
equivalga al Pago Mínimo Adeudado en ese ciclo de facturación más el total del saldo estándar de Compras pendiente el primer día de ese ciclo de facturación.
Para cada Tipo de Saldo que sea un tipo de Compra promocional por separado, vea la Sección 2 del presente Contrato para más información sobre cómo evitar pagar intereses por esas transacciones.
d. Cómo se tratan los Cargos por Mora (Atraso) y por Pagos Devueltos: El Banco no cobra interés en los Cargos por Atraso (por Mora) o Cargos por Pagos Devueltos.
4. Las Tasas de Interés de su Cuenta: La “Tasa de Porcentaje Anual” o “APR” es la tasa de interés anual que se cobra por los saldos de la Cuenta. En lo que se refiere a una promoción especial, podemos
cargar una tasa de interés promocional rebajada (que pudiera ser tan baja como una APR de 0%). La Tasa Periódica Diaria será igual al APR dividido entre 365.
5. Tiene que hacer un pago mínimo todos los meses: En cada ciclo de facturación, usted está de acuerdo en pagar, por lo menos, la cantidad mínima que se indica en su Cuenta mensual (la “Cantidad Mínima
Adeudada”) a más tardar para la fecha de vencimiento del pago. La fecha para pagar la Cantidad Mínima Adeudada será el mismo día todos los meses (“Fecha de Vencimiento del Pago”) según se ve en la
Cuenta (lo que será al menos 25 días después de la fecha del cierre de la cuenta todos los meses)
La Cantidad Mínima Adeudada se calculará de la manera siguiente:
(1) 3.5% del saldo por pagar en cada Tipo de Saldo (incluso cargos por intereses calculados en cada Tipo de Saldo aplicable) redondeado hasta el dólar más cercano; más
(2) todo pago que venza relacionado con cada saldo sujeto a una Oferta Promocional en la que se calcule un pago especial según se describe en la Sección 2 de este Contrato, redondeado hasta
el dólar más cercano; más
(3) cualquier tipo de cargo aplicable (excepto cargos por intereses) calculados en ese ciclo de facturación en particular; más
(4) cualquier pago atrasado.
Esa cantidad entonces se redondea al dólar más cercano.
Los créditos, ajustes, devoluciones y transacciones parecidas de la Cuenta no se pueden usar para remplazar el pago de ninguna parte del pago mínimo requerido. Si paga por adelantado con una cantidad
mayor que el Pago Minimo Adeudado en un ciclo de facturación, no se le excusará de hacer al Pago Mínimo Adeudado en los ciclos de facturación subsiguientes.
6. Si se atrasa en el pago, se le cobrará un Cargo por Atraso (Mora): La primera vez que no se reciba el Pago Mínimo Adeudado para el Día de Vencimiento del Pago que aparece en la Cuenta, le podemos
cobrar un cargo por atraso en una cantidad que equivalga al Pago Mínimo Adeudado o $27, lo que sea menos. Si durante los próximos seis ciclos de facturación no se recibe el Pago Mínimo Adeudado para
el Día de Vencimiento del Pago que aparece en la Cuenta, le cobraremos un cargo por atraso en una cantidad que equivalga al Pago Mínimo Adeudado o $37, lo que sea menos. Usted entiende y está de acuerdo
que, a opción nuestra, dicho cargo por atraso se considerará vencido y pagadero inmediatamente.
7. Si se devuelve un pago, se le cobrará un Cargo por Pago Devuelto: La primera vez que pague con un cheque y su institución financiera nos devuelva el cheque sin pagar o rechazado, le podemos cobrar
cargos por pago devuelto por una cantidad igual al Pago Mínimo Adeudado o $25, lo que sea menos. Si durante los próximos seis ciclos de facturación, paga con un cheque y su institución financiera nos
devuelve el cheque sin pagar o rechazado, le cobraremos cargos por pago devuelto por una cantidad igual al Pago Mínimo Adeudado o $35, lo que sea menos. Usted entiende y está de acuerdo que, a opción
nuestra, dicho cargo por pago devuelto se considerará vencido y pagadero inmediatamente.
8. Cargos administrativos: Si pide una copia de una Cuenta o un comprobante de venta o un cheque de pago, impondremos un cargo siempre y cuando no esté prohibido por las leyes correspondientes. La
cantidad del cargo se le dirá cuando pida este servicio opcional. Sin embargo, no se le cobrará por copias de las Cuentas, comprobantes de compra ni otro documentos que pida por un error/investigación
sobre la facturación que puede reclamar según la ley correspondiente.
9. El límite de su crédito:
a. Generalmente: El límite de crédito inicial de su Cuenta se indica en los materiales que acompañan la Tarjeta o Tarjetas que le mandamos cuando se abre la Cuenta. El límite actual de crédito
en la Cuenta se le indicará en la Cuenta mensual También puede llamar al Servicio al Cliente al número que aparece al dorso de su Tarjeta para averiguar cuál es su límite de crédito actual.
b. Cambios al límite de su crédito: A nuestro juicio, en cualquier momento y sujeto a las leyes aplicables, podemos aumentar o rebajar el límite de crédito que corresponde a su Cuenta sin
notificación previa a usted. Le haremos la notificación de cualquier cambio de ese tipo por correo y el límite de su crédito aparecerá en la Cuenta. Usted nos puede pedir que cambiemos el límite de su crédito
poniéndose en contacto con Servicio al Cliente llamando al número que aparece al dorso de su tarjeta Nosotros no tenemos que aceptar ningún pedido de ese tipo.
c. Sobrepasar el límite de su crédito: Usted está de acuerdo en no sobrepasar el límite de su crédito. También está de acuerdo en que el Banco puede permitirle que sobrepase su límite pero
que no está obligado a hacerlo. Si su Cuenta sobrepasa el límite de su crédito, usted está de acuerdo en pagar la cantidad que sobrepase el límite cuando se la facturen o antes, si lo pedimos. Si le permitimos
sobrepasar el límite de su crédito, no habremos renunciado a ninguno de nuestros derechos según el presente Contrato y no tendremos que permitir que sobrepase el límite de su crédito en una fecha
posterior.
10. Las facturas mensuales de su Cuenta: Si las leyes correspondientes lo exigen, le mandaremos la Cuenta todos los meses a la dirección que obra en nuestros documentos.
11. Cómo se aplican sus pagos al saldo de su Cuenta: Sujeto a lo siguiente y a las leyes correspondientes, por lo general, los pagos se aplicarán primero a las Compras más antiguas.
a. Cómo se aplica el Pago Mínimo a su Cuenta: Por lo general, aplicaremos el Pago Mínimo Adeudado en el órden siguiente: (i) a cargos por intereses y otros cargos; (ii) a las transacciones
de compras con las Tasas Periódicas Diarias más bajas y las APR correspondientes.
b. Cómo se aplican los pagos que sobrepasen que el pago mínimo. Por lo general, aplicaremos los pagos y créditos que sobrepasen al Pago Mínimo Adeudado en el órden siguiente: (i) a las
transacciones de compra con las Tasas Periódicas Diarias más altas y a las APR correspondientes; (ii) a las transacciones de compra con las Tasas Periódicas Diarias más bajas y las APR correspondientes;
y (iii) a los cargos por intereses y otros cargos.
c. Aplicación de los pagos durante el período de una Oferta Promocional con intereses diferidos: Si en su Cuenta hay una Oferta Promocional, o más, que tiene los intereses diferidos (a las
que le dijeron que no se le cargarían intereses si paga el saldo promocional por completo para cuando termine el período promocional), los pagos se aplicarán de modo diferente durante los dos ciclos de
facturación previos al vencimiento del plan promocional con intereses diferidos para asegurar que la mayor parte posible del saldo pendiente se pague antes de que termine el período promocional. Aplicaremos
cualquier pago que sobrepase el Pago Mínimo Adeudado al saldo del plan promocional. Si vence más de un período promocional cuando se reciba el pago que sobrepase el Pago Mínimo Adeudado, podemos
aplicar el pago de cualquier manera que lo permita la ley correspondiente. Vea la Sección 2 del presente Contrato así como las divulgaciones entregadas en el momento de la oferta de interés diferido para
más información sobre este tipo de oferta promocional.
12. Cómo puede hacer los pagos de la Cuenta: SEGÚN EL PRESENTE CONTRATO, EN CUALQUIER MOMENTO PUEDE PAGAR TODO EL SALDO SIN PAGAR O PARTE DEL SALDO SIN PAGAR. Para los objetivos
de esta Sección 12, el término “día laborable del Banco” o “día laborable” quiere decir de lunes a sábado (días de fiesta bancarios excluidos).
a. Pagos por correo: Los pagos tendrán que ser enviados a la dirección designada en la Cuenta. Los pagos recibidos en dicha dirección, con la parte de la cuenta que hay que devolver, a más
tardar a las 5 de la tarde hora del este de los Estados Unidos un día laborable se acreditarán el día en que se reciban. Sin embargo, si la fecha de vencimiento del pago cae en un día en que no aceptamos
pagos, el Banco no considerará ningún pago como atrasado si el Banco lo recibe antes de las 5 de la tarde, hora del este de los Estados Unidos, el siguiente día laborable. Los pagos que se reciban después
de las 5 de la tarde de lunes a viernes (con la excepción de días de fiesta bancarios) se acreditarán el siguiente día hábil.
Puede haber un atraso de cinco (5) días en acreditar los pagos que no se hagan en USD (dólares de EE.UU.), que no se hagan en el sobre proporcionado con el Estado de Cuenta y acompañados con el
comprobante de pago que forma parte de la Cuenta y / o que no se reciban en la dirección que se ha designado en la Cuenta para hacer los pagos. Tendrá que tener en cuenta hasta siete (7) días para la entrega
de su pago por el Servicio Postal de Estados Unidos. Los pagos se deben hacer con cheque o giro postal pagadero en fondos de los Estados Unidos y girado en una institución financiera dentro de los Estados
Unidos No aceptamos pagos para esta Cuenta en nuestras sucursales.
Es posible que la cantidad del pago no se añada inmediatamente al crédito que tiene disponible hasta que pasen siete (7) días para asegurarnos que cobremos los fondos del banco con el que hace
su pago. Si se sobrepasa en el pago o si hay un saldo de crédito en su Cuenta, no se le pagarán intereses por esa cantidad.
b. Pago automatizado de cuentas con teléfonos marcados por tono: Cuando llame al Banco al 1-888-382-6665 y use el servicio automatizado para pagar cuentas, nos puede autorizar a nosotros
o a nuestro agente a que automáticamente se inicie un único débito ACH a su cuenta corriente. Tendrá que ingresar su número de cuenta y su código postal para poder autenticarlo. Al usar este servicio,
autoriza a su institución financiera a que acepte estos débitos y que se los cargue a su cuenta bancaria. Los arreglos de pago que se hagan a más tardar a las 5 de la tarde, hora del este de los Estados Unidos,
en días laborales se acreditarán el mismo día. Los arreglos de pago hechos después las 5 de la tarde, hora del este de los Estados Unidos, día laborable o no laborable, se acreditarán el siguiente día laborable.
Éste es un sistema seguro y la información de su institución financiera no se compartirá por ninguna razón que no sean los pagos automáticos.
c. Pagos telefónicos hechos el mismo día: También puede llamarnos y hacer los arreglos para un pago acelerado a través de un representante de servicio al cliente. Al hacer eso, nos autorizará
a nosotros o a nuestro agente a iniciar automáticamente un único débito ACH a su cuenta corriente y autorizará a su institución financiera a aceptar esos débitos y cargarlos a su cuenta corriente. Los arreglos
de pago que se hagan antes de las 5 de la tarde, hora del este de los Estados Unidos en días laborables, se acreditarán el mismo día y los arreglos de pago hechos después de las 5 de la tarde, hora del este
de los Estados Unidos en un día laborable o no laborable, se acreditarán el día laborable siguiente.

d. Transferencia electrónica de fondos: Si usa un cheque para hacer pagos a este Cuenta, nos autoriza ya sea a usar la información del cheque para hacer una vez la transferencia electrónica
de fondos de su cuenta corriente o de depósito o para procesar el pago como una transacción con cheque. Cuando usemos la información de su cheque para hacer una transferencia electrónica de fondos,
se pueden retirar los fondos de su cuenta corriente o de depósito tan pronto como el mismo día que haga el pago y usted entiende que es posible que su institución financiera no le devuelva el cheque.
13. Si devuelven sin pagar el pago que hizo: Si su banco no acepta un pago hecho por usted y ya nosotros lo hemos acreditado a su Cuenta, invertiremos el crédito y volveremos a añadir la cantidad del
pago a su Cuenta desde el día que se acreditó el pago a su Cuenta por vez primera.
14. Pago irregular y retraso en el cumplimiento: Es posible que aceptemos pagos atrasados, pagos parciales, cheques y giros postales marcados “Pagado por completo” o lenguaje que tenga el mismo
efecto sin perder ninguno de nuestros derechos según el presente Contrato. También podemos retrasar que se cumplan nuestros derechos según el presente Contrato cualquier cantidad de veces sin que los
perdamos. Si en cualquier momento aceptamos una compra que sobrepase su límite de crédito máximo, no estamos obligados a hacerlo en ningún otro momento.
15. Si tiene un saldo de crédito: Nosotros haremos un esfuerzo de buena fe para devolverle cualquier saldo de crédito a favor de más de $1.00 en su Cuenta si el saldo de crédito a favor lleva más de seis
(6) meses en su Cuenta (o, a nuestro juicio, un período más corto). También podemos solicitar la devolución de un saldo a favor en su Cuenta en cualquier momento enviando su solicitud a Customer Service
a P.O. Box 731 Mahwah, New Jersey 07430, por correo prioritario con el franqueo prepagado. Nosotros podemos reducir la cantidad de cualquier saldo a favor de su Cuenta aplicando el saldo a favor a los
cargos nuevos de la Cuenta.
16. Compras hechas por sus Usuarios Autorizados: Podemos permitirle que tenga Usuarios Autorizados que puedan usar su Cuenta. Cuando permite que un Usuario Autorizado use su cuenta, usted será
responsable de todas las transacciones hechas por esa persona, incluso las transacciones por las que usted no tenía la intención de ser responsable y aún si la cantidad de la responsabilidad causa que sobrepase
el límite de su crédito Tiene que notificarnos que quiere que revoquemos su permiso para dejar que un Usuario Autorizado use su Tarjeta o su Cuenta llamando al número de teléfono que aparece al dorso de
su Tarjeta Hasta que usted no revoque su permiso, sigue siendo responsable de todos los cargos hechos por el Usuario Autorizado, aunque usted no haya tenido la intención de ser responsable.
17. Contrato Completo: Usted está de acuerdo en que el presente Contrato (según se enmiende y suplemente de vez en cuando), incluso la Tabla Resumen de la Cuenta y la solicitud constituyen la expresión
definitiva del Contrato entre usted y nosotros y que el presente Contrato no se puede contradecir por evidencia de ningún acuerdo oral previo, contemporáneo o subsiguiente, entre nosotros y usted, relacionado
con su Cuenta. La tienda al detalle y sus empleados no tienen la autoridad de cambiar, añadir algo a o explicar las condiciones de este Contrato excepto para proporcionarle nuestras Ofertas Promocionales.
Para más información o preguntas, llame a Servicio al Cliente al número que aparece al dorso de su Tarjeta.
18. Si deja de cumplir con el presente Contrato: Usted está de acuerdo que se encontrará en estado de incumplimiento y no estaremos obligados a aceptar ningún intento de usar su Cuenta (aunque no le
hayamos notificado previamente) si ocurre cualquiera de los sucesos siguientes:
•
Si no recibimos el pago mínimo exigido antes de las 5 de la tarde, hora del este de los Estados Unidos, en la Fecha de Vencimiento del Pago acompañado por el talón de pago de la
cuenta (si es por correo) o, si no recibimos ningún otro pago exigido por el presente Contrato, para la fecha de vencimiento de dicho pago.
•
Si sobrepasa el límite de crédito.
•
Si muere o lo declaran legalmente incapacitado o incapaz de manejar sus propios asuntos, si se vuelve insolvente, se declara en bancarrota o de otro modo es el sujeto de una petición
o presentación de bancarrota.
•
Si nos da información falsa o engañosa relacionada con su Cuenta en cualquier momento.
•
Si nos manda un cheque o instrumento similar que le devuelvan sin pagar o cualquier pago automático, electrónico o de otro tipo a su Cuenta que no pueda ser procesado o que se
devuelva sin pagar por cualquier razón dentro de los últimos seis (6) ciclos de facturación.
•
Si deja de cumplir con el presente Contrato o si no cumple con alguna de las condiciones del mismo.
•
Si tenemos razón para sospechar que usted o cualquier Usuario Autorizado pueda haber participado en cualquier actividad en su Cuenta que haya sido rara, sospechosa, fraudulenta
o ilegal.
•
Si usted no nos proporciona sin demora, después de habérsela pedido, ninguna información actualizada sobre sus finanzas, empleo o cualquier otra información que podamos pedir
razonablemente.
Al ocurrir el incumplimiento: (a) no estaremos obligados aceptar ningún intento de usar su Cuenta (aunque no le hayamos dado notificación previa); (b) podemos exigirle que pague inmediatamente todo o
parte del saldo pendiente en la Cuenta; y (c) podemos ejercer cualquier derecho proporcionado por el presente Contrato o la ley aplicable.
19. Su responsabilidad por uso no autorizado: Si se le pierde la Tarjeta o se la roban o, si cree que alguien pueda haber usado su Cuenta sin permiso, tiene que notificarnos enseguida. Puede que usted sea
responsable por el uso no autorizado de su Cuenta. No será responsable por el uso no autorizado que ocurra después que nos notifique de la pérdida o robo de su tarjeta o del posible uso no autorizado de
su Cuenta por escrito al P.O. Box 731 Mahwah NJ 07430 o verbalmente llamando a Servicio al Cliente al 1-800-252-2551. Su responsabilidad máxima es de $50 sujetos a cualquier restricción de las leyes
correspondientes, podemos darle fin a su Cuenta o limitar su acceso a la misma si nos ha notificado o hemos determinado que su Tarjeta se puede haber perdido o puede haber sido robada o que puede haber
uso no autorizado de su Cuenta.
20. Cierre de su Cuenta:
a. Nosotros podemos cerrar su Cuenta en cualquier momento: Sin notificación previa podemos suspender o cerrar su Cuenta para nuevas transacciones en cualquier momento, por cualquier
razón, incluso pero sin estar limitadas al cambio en su solvencia o inactividad en la Cuenta. Si suspendemos o cerramos su Cuenta a las nuevas transacciones, usted está de acuerdo en pagarnos todo lo que
nos debe según el presente Contrato (incluso cualquier cargo futuro por intereses o tarifas) según los términos y condiciones del presente Contrato y usted está de acuerdo en que no tenemos ninguna
responsabilidad con usted por consecuencias que sean el resultado del cierre de su Cuenta. Si usted está en estado de incumplimiento, podemos cerrar su Cuenta y exigirle que nos pague la cantidad
completa que debe según el presente Contrato inmediatamente. Nosotros también podemos aumentar la cantidad monetaria de su pago mínimo, sujeto a las leyes correspondientes. Si cerramos su cuenta
para recibir transacciones nuevas, inmediatamente tiene que destruir todas las Tarjetas y otros recursos de acceso a la Cuenta (corte, rompa o de otro modo dáñelos a propósito para evitar el uso no autorizado
por terceros)
b. Usted nos puede pedir que cerremos su Cuenta: En cualquier momento usted nos puede pedir que cerremos su Cuenta para recibir transacciones nuevas notificándole a Customer Service,
P.O. Box 731 Mahwah, New Jersey 07430 por correo prioritario con franqueo prepagado y devolviendo todas las Tarjetas y recursos de acceso a la Cuenta (cortados, rotos o de otra forma dañados a propósito
para evitar el uso no autorizado por terceros) junto con la notificación por escrito o poniéndose en contacto con nosotros llamando al departamento de Servicio al Cliente al número que aparece al dorso de
su Tarjeta. Si solicita que cerremos su Cuenta por teléfono, nosotros nos reservamos el derecho de exigir que nos envíe una notificación por escrito. También está de acuerdo en dejar de usar la Cuenta
inmediatamente después de nos notifique que quiere que cerremos su Cuenta para aceptar transacciones nuevas.
21. La dirección de su Cuenta y las notificaciones que le mandamos: Las cuentas de facturación y las notificaciones se mandarán a la dirección que tenemos en nuestros archivos y usted nos informará
rápidamente cualquier cambio en su dirección de correo electrónico o su dirección postal. Puede cambiar la dirección escribiéndonos a Customer Service, P.O. Box 731, Mahwah, New Jersey 07430 o
llamándonos al número que aparece al dorso de su Tarjeta. A nuestro juicio, podemos aceptar cambios en su dirección postal del Servicio de Correos de EE.UU. Si esta Cuenta es mancomunada, le podemos
mandar las cuentas de facturación y las notificaciones a cualquiera de los dos titulares.
22. Nuestros derechos continúan: Cualquier falta o retraso en ejercer cualquiera de nuestros derechos según el Contrato no descartará que más adelante ejerzamos esos derechos.
23. Cambios al presente Contrato: Nosotros podemos cambiar el presente Contrato, sujetos a las leyes correspondientes, en cualquier momento y de vez en cuando. Por ejemplo, pueden cambiar la
dirección y números de teléfono que debe usar para ponerse en contacto con nosotros, cambiar los cargos, añadir cargos nuevos, cambiar las tasas de interés y fórmula de tasas que correspondan a su Cuenta,
aumentar el pago mínimo adeudado o añadir, borrar o modificar términos no económicos. Le notificaremos de cualquier cambio al presente Contrato según lo exigen las leyes correspondientes. Cualquier
cambio, incluso cualquier aumento o rebaja en las APR de su Cuenta, tendrá vigencia en el momento que indique nuestra notificación y se aplicará a los saldos de su Cuenta, incluso a las transacciones nuevas,
como lo describimos en nuestra notificación. Le mandaremos por correo la notificación de cualquier cambio requerido en las condiciones a la dirección de su Cuenta que tenemos archivada.
24. Su comportamiento crediticio: Su Cuenta se ha establecido basados en los criterios que reflejan su historial crediticio en particular y de vez en cuando revisaremos su comportamiento crediticio. Si no
mantiene el nivel previo de comportamiento crediticio, podemos cambiar algunos o todos los términos de su Cuenta y le notificaremos los cambios hechos de acuerdo con la ley correspondiente.
25. Su información crediticia y su reporte crediticio; Usted nos autoriza obtener reportes crediticios relacionados con el presente Contrato y de vez en cuando relacionados con el repaso de su Cuenta o
cualquier actualización, extensión o renovación de su Cuenta y con el objetivo del cobro de su Cuenta. Usted nos autoriza verificar con otros cualquier información y proporcionar información sobre nuestras
transacciones con usted a terceros (incluso agencias que reportan sobre el consumidor, comerciantes y otros prestamistas) con motivos lícitos. USTED ENTIENDE QUE PODEMOS REPORTAR INFORMACIÓN
SOBRE SU CUENTA A LAS AGENCIAS CREDITICIAS. SUJETO A LAS LEYES CORRESPONDIENTES. LOS PAGOS ATRASADOS, PAGOS QUE NO SE HAGAN U OTRAS FALTAS DE CUMPLIMIENTO EN SU
CUENTA SE PUEDEN REFLEJAR EN SU REPORTE CREDITICIO.
26. Como disputar los reportes crediticios sobre su Cuenta: Si usted cree que la información que nosotros le presentamos a las agencias de reportes crediticios sobre su Cuenta no está correcta, nos debe
escribir a P.O. Box 731, Mahwah, NJ 07430 Attn: Credit Report Dispute (Disputa sobre el informe crediticio). Si no nos escribe a esa dirección puede haber retrasos. Para que nosotros podamos investigar
su disputa, tendrá que proporcionarnos su nombre, dirección y número de teléfono; el número de la Cuenta que disputa y porqué cree que hay algo que no está correcto. Nosotros completaremos la
investigación y le notificaremos las conclusiones y, si es necesario, lo que se ha rectificado. Usted entiende que llamarnos no conservará sus derechos.
27. Su autorización para el discado automático y el monitoreo/grabación de las llamadas: Se le pueden hacer llamadas telefónicas usando un aparato que le notifica de la llamada automática. Sus
conversaciones telefonicas con nuestros empleados o agentes pueden ser supervisadas y/o grabadas. También es posible que supervisemos y grabemos el correo o las conversaciones de nuestras páginas
Web llevadas a cabo entre usted y nosotros o usted y nuestros agentes, ya hayan sido iniciadas por usted o por nuestros agentes. El uso de su Cuenta significará que usted da su consentimiento a dicho uso
de un aparato que da la notificación de discado automático, a la supervisión y/o la grabación.
28. Números de teléfono que podemos usar para ponernos en contacto con usted. Cuando nos da su número de teléfono móvil, nos da su permiso para ponernos en contacto con usted a ese número
sobre todas sus cuentas con TD Bank. Su consentimiento nos permite usar mensajes de texto, mensajes de voz artificiales o grabados con anticipación y tecnología de discado automático para las llamadas
de servicio a la cuenta e informativas pero no para llamadas de telemercadeo o de ventas. Puede incluir el contacto con compañías que trabajan a nombre nuestro para prestar servicio a sus cuentas. Es
posible que correspondan las tarifas de mensajes y datos. Se puede poner en contacto con nosotros en cualquier momento para cambiar estas preferencias.

29. Asignación. En cualquier momento podemos asignar o vender esta Cuenta, cualquier cantidad adeudada en esta Cuenta o sus derechos y obligaciones según esta Cuenta. Cualquier persona o personas
a las que les hagamos dicha asignación o venta estará autorizada para ejercer todos nuestros derechos según el presente Contrato hasta el alcance que se le hayan asignado.
30. Ley imperante: El presente Contrato, incluso las tasas de interés y cargos, lo regirán las leyes federales correspondientes y las leyes substantivas del Estado de Delaware (hasta el punto que no
las excluyan las leyes federales) sin tener en cuenta los principios del conflicto de derecho o la selección de derecho.
31. Su consentimiento para recibir divulgaciones electrónicas. Si usted presentó la solicitud para esta Cuenta electrónicamente, usted estuvo de acuerdo en que cualquiera y todas las divulgaciones y/o
notificaciones de la apertura de la cuenta exigidas por las leyes y regulaciones aplicables se le pueden mandar electrónicamente siempre y cuando usted no haya retirado su consentimiento. Otros documentos
que podemos poner a su disposición electrónicamente de vez en cuando y después de haber obtenido su consentimiento incluyen si limitación a ellas, las divulgaciones exigidas por la ley llamada Federal
Truth in Lending Act (Ley federal de veracidad en préstamos), notificaciones o divulgaciones exigidas por la ley Equal Credit Opportunity Act (Ley de oportunidad equitativa en el crédito) o Fair Reporting Act
(Ley de reportes justos), notificaciones de privacidad, cambios en los términos, cuentas mensuales y cualquier otra notificación que las leyes federales o estatales exijan le sean provistas por escrito.
Usted puede pedir una copia impresa de cualquier notificación que reciba electrónicamente y se le proporcionará sin costo alguno cualquier notificación exigida. Si esta cuenta es mancomunada, cualquier
titular de la cuenta puede seleccionar recibir notificaciones electrónicas y esa selección se aplicará a todos los titulares de la cuenta. En cualquier momento usted puede retirar su consentimiento para recibir
los documentos electrónicamente. Para retirar su consentimiento y recibir las notificaciones impresas, tiene que llamarnos al 1-800-252-2551. Sin embargo, retirar dicho consentimiento puede dar como
resultado que se cierre su cuenta. Usted tiene que notificarnos cualquier cambio a su dirección electrónica llamándonos al número de teléfono indicado arriba. Para poder recibir la información electrónicamente,
tiene que tener una computadora que use Microsoft Internet Explorer 8® o una versión más reciente o una versión actual de Google Chrome®, Mozilla Firefox®, o Google Safari®. Todos los navegadores
tienen que ser compatbiles con JavaScript, Cookies y SALE (capa de protección segura) para la codificación de canales usando codificación de 128-bits. Usted tiene que tener una dirección IP pública que no
cambie en medio de la sesión si no, por razones de seguridad, se terminará la sesión.
32. Derecho de garantía real: Por el presente usted nos otorga el derecho de garantía real sobre cualquier compra hecha con la Cuenta incluso Compras por Internet, teléfono y correo hechas por usted o
por otra persona autorizada por usted para usar esta cuenta y los beneficios de la misma, incluso beneficios de seguros. Además, usted nos autoriza a presentar sin su firma las declaraciones de financiamiento
que muestren nuestro derecho de garantía real en la compra y beneficios de la misma o, en el caso que la ley estatal exija su firma, usted está de acuerdo en participar en la firma de todas las declaraciones
de financiamiento de un modo que nos sea satisfactorio. Cualquier compra dada seguirá siendo una garantía de todas las compras hasta el momento en que dicha compra se haya pagado por completo y
usted está de acuerdo en que sus pagos se considerarán hechos según indica la Sección 11 del presente Contrato.
AVISOS
A.
EN CUALQUIER MOMENTO PUEDE PAGAR TODO LO ADEUDADO SEGÚN EL PRESENTE CONTRATO.
B.
USTED GUARDARÁ UNA COPIA DEL PRESENTE CONTRATO PARA PROTEGER SUS DERECHOS LEGALES.
C.
SUJETO A LAS LEYES CORRESPONDIENTES, EL BANCO PUEDE CAMBIAR LOS TÉRMINOS DE, AGREGAR TÉRMINOS NUEVOS A O ELIMINAR TÉRMINOS EN EL PRESENTE CONTRATO. EL
BANCO LE NOTIFICARÁ EL CAMBIO, LO AGREGADO O ELIMINADO POR ANTICIPADO CUANDO LO EXIJA LA LEY CORRESPONDIENTE. CUALQUIER CAMBIO, TÉRMINOS AGREGADOS O ELIMINADOS AL
PRESENTE CONTRATO TENDRÁN VIGENCIA EN EL MOMENTO EN QUE LO INDIQUE LA NOTIFICACIÓN.
AVISO: CUALQUIER TITULAR DEL PRESENTE CONTRATO DE CRÉDITO AL CONSUMIDOR ESTÁ SUJETO A TODAS LAS RECLAMACIONES Y DEFENSAS QUE EL DEUDOR PUEDA ASEVERAR CONTRA EL
VENDEDOR DE LOS BIENES O SERVICIOS OBTENIDOS CON LOS INGRESOS DEL PRESENTE. LA RECUPERACIÓN POR EL DEUDOR SEGÚN EL PRESENTE NO DEBE SUPERAR LAS CANTIDADES PAGADAS
POR EL DEUDOR SEGÚN EL PRESENTE.
Residentes de Nueva Jersey Ciertas disposiciones del presente Contrato pueden ser nulas, no exigibles o inaplicables en algunas jurisdicciones. Sin embargo, ninguna de estas disposiciones son nulas,
no exigibles o inaplicables en Nueva Jersey.
_________________________________________________________________________________________________________________________________________________________________
SUS DERECHOS DE FACTURACIÓN: GUARDE ESTE DOCUMENTO PARA USO FUTURO
Esta notificación le indica sus derechos y nuestras responsabilidades según la ley llamada en inglés Fair Credit Billing Act (Ley de facturación imparcial de crédito).
Qué hacer cuando encuentra un error en su Cuenta
Si cree que hay un error en su cuenta, escríbanos a: Customer Service at P.O. Box 731 Mahwah, New Jersey 07430
Sírvase proporcionar la información siguiente en su carta:
•
Información de la Cuenta: Su nombre y número de cuenta.
•
Cantidad en dólares: La cantidad monetaria del error que se sospecha.
•
Descripción del problema: Si cree que hay un error en su cuenta, describa lo que usted cree que está mal y porqué cree que es un error.
Tiene que ponerse en contacto con nosotros:
•
En un plazo de 60 días después de que el error haya aparecido en su cuenta.
•
Por lo menos 3 días laborales antes de que se haya programado un pago automático si quiere que no se pague la cantidad que cree que está equivocada.
Tiene que notificarnos cualquier error potencial por escrito. Nos puede llamar pero, si lo hace, no se nos exige que investiguemos ningún error potencial y es posible que tenga que pagar la cantidad en cuestión.
Que pasará después de que recibamos su carta
Cuando recibamos su carta, tenemos que hacer dos cosas:
1. En un plazo de 30 días de haber recibido su carta tenemos que decirle que la hemos recibido. También le diremos si ya hemos rectificado el error.
2. En un plazo de 90 días de haber recibido su carta tenemos que rectificar el error o explicar por qué creemos que la cuenta estaba correcta.
Mientras investigamos si hay un error o no:
•
No podemos tratar de cobrar la cantidad en cuestión o reportar que ha incurrido en situación de incumplimiento.
•
El cargo en cuestión puede permanecer en su cuenta y podemos seguir cobrando el interés de esa cantidad.
•
Aunque no tiene que pagar la cantidad en cuestión, usted es responsable de pagar el resto del saldo.
•
Podemos aplicar cualquier cantidad no pagada contra el límite de su crédito.
Después que terminemos nuestra investigación, sucederá una de dos cosas:
•
Si hemos cometido un error: No tendrá que pagar la cantidad en cuestión ni ningún interés u otros cargos relacionados con esa cantidad.
•
Si no creemos que ha habido un error: Tendrá que pagar la cantidad en cuestión junto con todos los intereses y cargos correspondientes Le enviaremos un estado de cuenta que indique la
cantidad que debe y la fecha en que vence el pago. Entonces es posible que reportemos que ha incurrido en situación de incumplimiento si no paga la cantidad que creemos que debe.
Si recibe una explicación pero todavía cree que la cuenta está equivocada, tiene que escribirnos dentro de un plazo de 10 días diciéndonos que todavía se niega a pagar. Si hace eso, no podemos reportar que
no ha pagado si no reportamos también que ha puesto en duda la cuenta. Tenemos que decirle el nombre de cualquiera a quien hemos reportado que ha incurrido en situación de incumplimiento y tenemos
que hacerle saber a esas organizaciones cuándo hemos arreglado el asunto entre nosotros.
Si no observamos todas las reglas anteriores, ustes no tendrá que pagar los primeros $50 de la cantidad en cuestión aún si su cuenta está correcta.
Sus derechos si no está satisfecho con las Compras hechas con la Tarjeta de crédito:
Si no está satisfecho con los bienes o servicios que ha comprado con su tarjeta de crédito y de buena fe ha tratado de resolver el problema con el comerciante, es posible que tenga el derecho de no pagar la
cantidad restante que debe por esos bienes o servicios.
Para utilizar ese derecho todo lo siguiente debe ser cierto:
1. Tiene que haber hecho la compra en el estado en el que vive o dentro de 100 millas a la redonda de su dirección postal actual y el precio de compra tiene que haber sido más de $50. (Nota: Ninguno
de los dos es necesario si su compra estuvo basada en un anuncio que le mandamos por correo o si somos propietarios de la compañía que le vendió los bienes o servicios.)
2. Tiene que haber usado su tarjeta de crédito para hacer la compra. Las compras hechas con dinero en efectivo obtenido en un cajero automático o con un cheque con acceso a la cuenta de su tarjeta
de crédito no califican.
3. Todavía no puede haber pagado por la compra por completo.
Si se cumplen todos los criterios anteriores y todavía no está satisfecho con la compra, póngase en contacto con nosotros por escrito al: Customer Service at P.O. Box 731 Mahwah, New Jersey 07430
Mientras investigamos, las mismas reglas presentadas arriba corresponden a la cantidad en disputa. Después que terminemos nuestra investigación le informaremos de nuestra decisión. En ese
entonces, si pensamos que debe cierta cantidad y no la paga, podemos reportar que está en situación de incumplimiento.

ADVANCE AUTO PARTS•SPA (0318)

ADVANCE AUTO PARTS•SPA (1016)
TABLA RESUMEN DE LA CUENTA*
Tasas de interés y cargos por interés
Tasa de Porcentaje Anual
28.99%
(APR) para las Compras
La fecha de vencimiento del pago es de por lo menos 25 días después del cierre de
Cómo evitar el pago de
cada
ciclo de facturación. No le cobraremos intereses por las compras si paga el
intereses

Cargo de interés mínimo:
Para Consejos para tarjetas
de Crédito de la Sección de
Protección Económica del
Consumidor
Tarifas
Cargos anuales
Penalidades
• Cargo por pago
atrasado
• Cargo por pago
devuelto

saldo completo para la fecha de vencimiento todos los meses.
Si se le carga el interés, el cargo no será menos de $2.00.

Para aprender más sobre los factores que se deben tener en cuenta
cuando se solicite o use una tarjeta de crédito, visite la página web de
la Oficina para la Protección Financiera al Consumidor
http://www.consumerfinance.gov/learnmore
Ninguno

Hasta $37
Hasta $35

Cómo calcularemos su saldo: Usaremos el método del “Saldo Promedio Diario (incluso para las transacciones nuevas)”. Vea la
Sección 3 de su Contrato de Tarjetahabiente para más detalles.
Derechos de facturación: La información sobre su derecho de disputar transacciones y cómo ejercer esos derechos se
proporciona en su Contrato de Tarjetahabiente.
La tasas actuales de la Cuenta: La Tasa Periódica Diaria para compras estándar es 0.079424% (lo que corresponde a una APR de 28.99%).
SU CONTRATO DE TARJETAHABIENTE CON NOSOTROS
En el presente Contrato de Tarjetahabiente (el “Contrato”) “usted” y “suyos” quiere decir el/los prestatario(s) y “nosotros” y el “Banco” quieren decir TD Bank, N.A., el emisor de su tarjeta de crédito (la
“Tarjeta”) Toda extensión de crédito relacionada con la cuenta de la tarjeta de crédito (la “Cuenta”) la hace el Banco. El presente Contrato establece los términos de la Cuenta y lo debe guardar con sus papeles
importantes. Con su firma al hacer su primera compra, quedarse con o de otro modo aceptar la Tarjeta o Cuenta, indica que está de acuerdo con los términos y condiciones del Contrato. El presente Contrato
quiere decir este documento y la Tabla Resumen de la Cuenta, adjunta, y cualquier cambio que le hagamos a esos documentos de vez en cuando.
1. Su promesa de pagar y cómo usar su cuenta: Usted (y cualquier persona que nos haya designado como usuario autorizado (“Usuario Autorizado”)) tendrá que firmar la tarjeta para usarla. Usted será
responsable de todo uso de la Tarjeta o Cuenta por usted o cualquier persona con autoridad real, implícita o aparente para actuar en su nombre o usar la Tarjeta o Cuenta, incluso pero no limitado a cualquier
Usuario Autorizado. Cualquier uso de ese tipo constituye aceptación de todos los términos y condiciones del presente Contrato, aunque el presente Contrato no está firmado.
Usted nos autoriza pagar por cualquier y toda compra que sea el resultado del uso de la Tarjeta o Cuenta (cada una la “Compra”) y cargarlas a su Cuenta. Usted promete pagarnos (en dólares de los Estados
Unidos (USD) tramitados a través de bancos de los Estados Unidos) por todas estas Compras, según lo exige el presente Contrato, más por todo otro tipo de cargo que se deba según el presente Contrato
(incluso, sin limitaciones, por todas las Compras hechas o usadas por un Usuario Autorizado).
El uso de la Tarjeta o la Cuenta puede incluir el uso físico, pedidos por correo o teléfono, transacciones por computadora u otras transacciones electrónicas sin presentar la Tarjeta, o cualquier otra circunstancia
en la que usted autorice un cargo o autorice a otra persona a que haga el cargo a su Cuenta. Usted está de acuerdo en usar la Tarjeta y la Cuenta solo para sus propios objetivos legales personales, familiares
o del hogar. Usted está de acuerdo en que usted y cada Usuario Autorizado no usará la Tarjeta ni la Cuenta para ningún objetivo de negocios ni comercial ni para ningún objetivo ilícito o ilegal. Dichas
transacciones ilícitas o ilegales incluyen sin estár limitadas ellas, las transacciones de juego en línea y cualquier transacción de apuestas ilegales según la ley correspondiente, incluso la compra de billetes de
lotería o chips de casinos o apuestas y jugadas fuera del hipódromo [“off-track”] Nos reservamos el derecho de bloquear todas las transacciones de ese tipo. Sin embargo, en el caso de que un cargo o transacción
descrito en esta divulgación se apruebe y se procese, usted todavía será responsable del cargo hasta el máximo alcance permitido por la ley correspondiente. Si esta es una cuenta mancomunada, es posible
que le exijamos que pague toda la cantidad que se deba sin pedirle primero a otra persona que pague.
2. Sobre las ofertas de financiamiento que puedan estar a su disposición:
a. Generalmente: No obstante cualquier otra disposición del presente Contrato, ocasionalmente podemos, a opción nuestra, tener ciertas ofertas de financiamiento disponibles para ciertos tipos
de Compras (“Ofertas Promocionales”) Los detalles de la Oferta Promocional estarán descritos en la oferta específica. Entre otras cosas, las características de las Ofertas Promocionales pueden incluir
períodos sin intereses; intereses pospuestos y perdonados si se paga la compra por completo dentro del período de promoción (y que todas las otras condiciones se hayan satisfecho); tasas de interés
reducidas; y/o condiciones de pago especiales, incluso pagos más altos que de otro modo se hubieran requerido. Los beneficios de las Ofertas Promocionales pueden depender del pago de mi cuenta según
el presente Contrato y / o las Ofertas Promocionales. La información sobre las Ofertas Promocionales aparecerá por separado en su cuenta mensual (la “Cuenta”) durante el tiempo que la Oferta Promocional
tenga vigencia. Si usted usa su Cuenta con una Oferta Promocional, reconoce y está de acuerdo en que las condiciones específicas de la Oferta Promocional modificarán al presente Contrato y formarán parte
del mismo y todas las otras condiciones y términos del presente Contrato estarán sujetas a la Oferta Promocional. Las disposiciones estándar del presente Contrato corresponden a todas las transacciones
que no estén sujetas a la Oferta Promocional. Sujetos a las leyes correspondientes, cualquier Oferta Promocional puede estar condicionada por nosotros en que usted cumpla con los requisitos
especificados y podemos no permitirle que participe en Ofertas Promocionales adicionales, si las hay, si se atrasa en hacer cualquier pago.
b. Ofertas Promocionales que es posible que tenga a su disposición: Si hay una Oferta Promocional disponible en el momento en que hace la compra, recibirá información en ese momento
sobre los términos de la oferta. Es posible que se requiera que compre cantidades mínimas para que una compra sea elegible para el financiamiento por una Oferta Promocional determinada. También
es posible que existan otras restricciones. Los términos específicos del tipo de Ofertas Promocionales que pongamos a su disposición de vez en cuando para ciertas transacciones se establecen abajo, en la
Sección 2; siempre y cuando, sin embargo, dichos términos puedan ser modificados o suplementados por los términos establecidos en o con el comprobante de pago que recibió cuando hizo la compra.
c. Ejemplos de Ofertas Promocionales que es posible que tenga a su disposición:
Ofertas Promocionales con interés diferido y con términos estándar de pago: En este tipo de Oferta Promocional, se impondrán a la cuenta los cargos por intereses diferidos de acuerdo con la APR para
Compras estándar (que aparece en la sección Tasas de Interés y Cargos por Interés de la Tabla del Resumen de la Cuenta (la “tabla de Tasas de Interés y Cargos por Interés”)) desde la fecha de la compra hasta
que termine el período de promoción. Si los pagos a la Cuenta se han hecho a tiempo durante el período promocional y el saldo promocional de la Compra se ha pagado por completo dentro del período
promocional, no se aplican los cargos por interés diferidos.
Si el saldo de la compra promocional no se paga por completo para la fecha en que vence la promoción, la cantidad total diferida de los cargos por interés se le añadirá a su Cuenta. Después que haya vencido
la Oferta Promocional, se continuará cargando el interés en el saldo restante (y también por cualquier interés diferido calculado) usando la APR para Compras estándar actual en ese entonces que aparece en
la tabla de Tasas de Interés y Cargos por Interés, hasta que el saldo restante se pague por completo.
Para este tipo de Oferta Promocional, se calcula el pago mínimo relacionado con el saldo promocional de acuerdo con la Sección 5 del presente Contrato. Si solo hace el pago mínimo mensual durante el
tiempo de esa Oferta Promocional, no habrá pagado el saldo promocional al final del período promocional y se le cargará el interés diferido. Se requieren pagos mayores que la cantidad mínima debida
indicada en la Cuenta para pagar el saldo promocional y evitar tener que pagar los intereses diferidos. El período de la Oferta Promocional para este tipo de oferta generalmente será de 6 meses.
3. Cómo calculamos los cargos por interés de su Cuenta:
a. El interés y cualquier cargo mínimo por intereses. Durante cada ciclo de facturación, nosotros determinamos por separado los cargos por interés en las Compras estándar y en cada tipo
separado de Compras promocionales (cada uno, un “”Tipo de Saldo”“).” Por cada Tipo de Saldo, nosotros determinamos los cargos por interés de cada ciclo de facturación al multiplicar el Saldo Sujeto a la
Tasa de Interés por la Tasa Periódica Diaria aplicable (vea la información sobre la Tasa de Interés en la Sección 4) y luego multiplicamos el resultado por la cantidad de días en el ciclo de facturación. Para cada
Tipo de Saldo, el Saldo Sujeto a la Tasa de Interés es el saldo promedio diario (incluidas las nuevas transacciones) según se calcule de acuerdo con la Sección 3.b a continuación. Para obtener el total de los

